<html>
<title> - A New Approach to Europe? U.S. Interests, Nationalist Movements, and the European Union</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


115th Congress }                            Printed for the use of the             
2nd Session    }      Commission on Security and Cooperation in Europe                       

======================================================================

	            A New Approach to Europe?  U.S. 
	           Interests, Nationalist Movements
	               and the European Union


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                          November 1, 2018

                           Briefing of the
          Commission on Security and Cooperation in Europe
------------------------------------------------------------------------
                         Washington: 2019


      Commission on Security and Cooperation in Europe
                  234 Ford House Office Building                                               
                   Washington, DC 20515
                      202-225-1901
                      <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7c4d4c4c2e7cac6cecb89cfc8d2d4c289c0c8d1">[email&#160;protected]</a>
                      http://www.csce.gov
                         @HelsinkiComm

                                      
                                      
                                      
            Legislative Branch Commissioners



              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			SHELDON WHITEHOUSE, Rhode Island
                        
          
                 

               Executive Branch Commissioners
               
               
                    DEPARTMENT OF STATE
                   DEPARTMENT OF DEFENSE
                  DEPARTMENT OF COMMERCE
                            [II]


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.

 
             A New Approach to Europe? U.S.
           Interests, Nationalist Movements, 
                and the European Union


                            November 1, 2018


                                  				Page
                              PARTICIPANTS

    Kyle Parker, Chief of Staff, Commission for Security and 
Cooperation in Europe						    1

    Alex Tiersky, Senior Policy Advisor, Commission for Security and 
Cooperation in Europe						    2

    Dr. Ted R. Bromund, Senior Research Fellow in Anglo-American 
Relations, Margaret Thatcher Center for Freedom, The Heritage 
Foundation							    3

    Dr. Paul Coyer, Research Professor, The Institute of World Politics

								    7

    Jeffrey Rathke, President, American Institute for Contemporary 
German Studies, Johns Hopkins University			   10


A New Approach to Europe? U.S. Interests, Nationalist Movements,
                        and the European Union
                        
                        
                              ----------                              

                            November 1, 2018

    The briefing was held at 10:00 a.m. in Room 562, Dirksen Senate 
Office Building, Washington, DC, Alex Tiersky, Senior Policy Advisor, 
Commission for Security and Cooperation in Europe, presiding.
    Panelists present: Kyle Parker, Chief of Staff, Commission for 
Security and Cooperation in Europe; Alex Tiersky, Senior Policy 
Advisor, Commission for Security and Cooperation in Europe; Dr. Ted R. 
Bromund, Senior Research Fellow in Anglo-American Relations, Margaret 
Thatcher Center for Freedom, The Heritage Foundation; Dr. Paul Coyer, 
Research Professor, The Institute of World Politics; and Jeffrey 
Rathke, President, American Institute for Contemporary German Studies, 
Johns Hopkins University.

    Mr. Parker. Good morning, everyone. My name is Kyle Parker. I'm 
with the U.S. Helsinki Commission. I'd like to welcome you all today to 
our briefing, ``A New Approach to Europe.''
    Here at the Helsinki Commission we have the luxury of looking a 
little further ahead, going a little deeper on some of the questions 
that occupy the minds of the legislative branch as well as general 
national security questions that are confronting the United States. And 
one of the things, of course, in the past year or two is--there's a 
tension in transatlantic relations. Something has clearly changed.
    I think it's fair enough to say that the relationship is in flux, 
maybe even strained. Look at many things that characterize this 
moment--the populist movements, the strong euro-skeptic threat in 
Europe, Brexit, fairly robust pro-NATO sentiment, real concern in the 
east about Moscow's intentions, concerns on Europe's southern flank 
with immigration, and a number of policy questions that surround that.
    At the same time, I think it's fair to say that a lot remains the 
same, in that the United States' national security goal post-war, of a 
Europe that's whole, free, and at peace, remains. And so there's a 
question of how will we use the institutions that we participate in--
namely NATO and the OSCE--to advance those goals in this context? And 
where does that place us vis-a-vis the EU, which, of course, we are not 
members of.
    So in our discussion today we have a solid panel who will bring 
divergent viewpoints to this and hopefully raise some provocative 
questions. I'd just like to lay out three questions we should shed some 
light on. And the first one is the question of patriotism, national 
identity. How much does the lack of what we here in the United States 
would consider not simply a benign but a positive, even essential, 
flag-waving patriotism--how much does the lack of that in Europe 
contribute to the unwillingness of populaces in many of the countries 
to spend what is necessary to defend their own state, and meet its 
obvious defense needs, and also to meet their collective security 
obligations?
    So in that sense is NATO necessarily pitted against the EU? Can 
NATO be aggrandized--or should NATO be aggrandized at the EU's expense, 
from our perspective? Our attention, understanding the moment we're in 
and thinking, Well, there's broad overlap between these organizations--
let's shore up NATO and let the chips fall where they may on the EU? So 
that would be my first question.
    I also would be interested in this--to what extent is the burden--
it's obvious in our own domestic debate that the burden-sharing is 
politically important. And our current leadership has made it even more 
important and really highlighted it. But on a tactical and technical 
level how critical is it from our perspective? I think from the 
perspectives of the states themselves it's obvious, to be able to 
defend yourself. But from our perspective, how important is it that 
these targets are met, and met in the frame that we'd like to see them 
met?
    And finally, let's imagine we arrive at the high-class problem 
where Germany spends 2 percent or more on national defense. If we were 
to see that, would we not have other problems in what might look like 
German militarization? And the fact that, with German politics in flux, 
we're not going to see that happen under a Chancellor Merkel. What sort 
of leadership would we see that happen under in Germany? And what sorts 
of unanticipated effects might that cause politically in neighboring 
states--Poland, and France, and other places?
    Those are the questions I have. And without any further delay, I'm 
looking forward to everyone's presentation, and will turn this over to 
my colleague Alex to moderate our discussion.
    Mr. Tiersky. Thank you, Kyle. Let me add my welcome to everybody 
here. I see a very healthy audience that we have, which I take is an 
excellent sign of interest in this set of topics, and certainly in our 
distinguished colleagues who have joined us on the panel to have this 
conversation.
    Kyle, thank you for your intellectual leadership in laying out some 
of the questions that we anticipate discussing today. I would only add 
that the commission has a track record of kind of big thinking on a 
number of these issues, and certainly an engagement policy-wise on 
issues ranging from the security framework of Europe, to include, for 
instance, this briefing.
    In the folders that you may have picked up, there's a resolution 
that was introduced by our chairman, Senator Wicker, joined by our 
senior Democratic Senator, Ben Cardin, and two other of our 
commissioners, Senators Tillis and Shaheen, who are the leaders of the 
Senate NATO Observers Group. They introduced together a resolution in 
advance of the most recent NATO summit talking about exactly these 
issues of transatlantic relationship and United States interests.
    I would also point out that not very long ago we had an event 
featuring members of the European Parliament to talk about some of 
these questions. They were here trying to assess continued United 
States interest in their institution and collaboration across the 
Atlantic. So this, I think, fits well within the breadth of the 
coverage that the Helsinki Commission devotes to these questions.
    So, without further ado, my role here principally is that of 
traffic cop. And what I would suggest that we do is, I will introduce 
our speakers. I'll ask them for some opening comments, in the order you 
see them to my left. And, dear audience, I will turn to you for 
questions. I will assume that you will be jotting down those questions 
you will have when the time comes, after I take the moderator's 
prerogative to push our panelists a little bit in areas in which they 
may agree and in areas in which they disagree.
    Let me very quickly introduce the speakers I have been lauding. 
First, to my left, will be our first presenter, Dr. Ted Bromund. He is 
the senior research fellow in Anglo-American relations at the Margaret 
Thatcher Center for Freedom of the Heritage Foundation. To say he 
writes prolifically would be an understatement. He previously served as 
associate director of international security studies at Yale. And we've 
asked him to offer us a broad-strokes overview of United States 
relations with Europe in a historical context, as well as thinking hard 
about what the European Union's role is as a security provider in its 
own region today.
    Our second presenter will be Dr. Paul Coyer of the Institute of 
World Politics. He'll be offering his thoughts on the nature of 
nationalism in Europe today, that's been alluded to already, and the 
implications of some of these trends on transatlantic relations. Dr. 
Coyer, who is a historian, is a contributor to Forbes magazine and a 
contributing editor of Providence, a journal of Christianity and 
American foreign policy. Of course, we're always also happy to welcome 
back a former Hill staffer.
    Last, we will hear from Jeff Rathke, who serves as president of the 
American Institute for Contemporary German Studies at the Johns Hopkins 
University. Jeff, congratulations, again, on that still relatively 
recent appointment. I think they selected a terrific candidate. Prior 
to joining the institute, Jeff was the senior fellow and deputy 
director of the Europe program at the Center for Strategic and 
International Studies (CSIS). He joined CSIS in 2015 from an extremely 
distinguished career at the Department of State, where he served as a 
foreign service officer for 24 years. And in that distinguished career, 
he was primarily dedicated to U.S. relations with Europe, including 
stints at NATO headquarters.
    So three very different backgrounds to assess this set of 
questions. I'm looking forward to their presentations. Ted, please 
start us off.
    Dr. Bromund. Thanks very much. Real pleasure to be here. And I want 
to start off by thanking Alex Tiersky and Kyle Parker for conceiving of 
and organizing this briefing. It's an important subject, because U.S. 
policy toward Europe has changed fundamentally since 1945, and in 
particular since 1989. But in my view, the shifts in U.S. policy have 
not been well considered or well understood, in part because most of 
the relevant scholars, policymakers, and funding derive from a single 
perspective--that of the European Union.
    So in my view, the U.S. does not need a new policy toward Europe. 
It already has a new policy toward Europe. And it's had a new policy 
toward Europe since the end of the cold war. It needs to return to its 
former policy, from which it has thoughtlessly strayed. Inevitably, 
this briefing, like any discussion of Europe, raises the question of 
populism. I'm not entirely sure what is meant by the term populism, 
except that it is obviously used to describe parties, movements, and 
beliefs that the speaker dislikes. It is a negative term.
    At the level of politics, what is happening is that in many 
European nations--except for Britain, interestingly--established 
parties on the left in particular, but also on the right, are losing 
votes to new parties which are often described as populist or 
nationalist. It's important to understand why this is happening. I've 
been struck over the past several years by the relatively uncurious 
approach that's been taken toward the rise of the new parties and the 
decline of the old ones. The phenomena, in my view, is condemned more 
often than it is analyzed.
    Sometimes the explanation that's offered is that it's all the fault 
of the Russians. I have been a vehement opponent of the Russian regime, 
and a great many pieces on it published, but in my view blaming the 
Russians is so simplistic an explanation that it barely merits a 
rebuttal. It should be obvious that when large numbers of people vote 
for new parties, they are doing so because the old parties do not meet 
their needs. If lots of people did not vote for the new parties, there 
would be no rise of populism to worry about. It should be equally 
obvious that the old consensus and the analytic and policy support for 
it from the U.S. are equally faulty. After all, if that consensus had 
been genuinely satisfactory, it would be now receiving more support 
from the European publics.
    One problem is the relative narrowness of the political consensus 
in Europe. You don't have to go very far on the left, or especially on 
the right, before you fall outside the European political consensus. In 
these circumstances, anyone who disagrees with a substantial part of 
that consensus is going to have to look for a new party to vote for. 
And given that support for the European Union and for ever-deeper 
integration are a core part of the elite European political consensus, 
it's inevitable that a good deal of the rebellion against it is going 
to be associated with nationalism.
    Now, nationalism is a dirty word in Europe. That's because 
nationalism has been tarred by association with Nazism. Precisely why 
Adolf Hitler, who was a racist imperialist, is now regarded as a 
nationalist, while the nationalists in Poland, France, and Britain who 
resisted Hitler and fought to restore or save their political 
independence are treated as the heroes of Europe's anti-nationalist 
rebirth is an interesting question. But the broader fact is this: Every 
single stable democracy in the world--every one of them--grew out of a 
national state and was fortified by a sense of nationalism. Without 
nationalism, there is no political community, and without political 
community there can be no democracy.
    This is not an original idea on my part. Philosophers from Adam 
Smith to John Stuart Mill regarded what I have just said as an absolute 
commonplace. Historians of almost every European nation--I'm thinking 
of my first advisor at Yale, Linda Colley, who wrote about Britain, to 
the distinguished historian of France, Eugene Weber--have pointed out 
the importance of a felt sense of national identity to the making of a 
political nation--all of these historians have also pointed out 
something else. National identity is not inherent. Babies are not born 
French or Polish. National identity is learned and constructed. In 
other words, you do not just--in Eugene Weber's phrase--make peasants 
into Frenchmen once. You have to do it every generation.
    And you have to do it with immigrants, too. Too many in Europe 
believe that Europe can rest forever on the nation-making achievements 
of past generations, or even that it should degrade those achievements 
by denigrating nationalism for the sake of a shallowly rooted 
Europeanism. This is a fundamental error. Nations are not made forever. 
And if they are not being continuously remade, they are being 
destroyed.
    I would not, myself, say that nationalism is a good thing. Like any 
kind of group identity, it offends against God's truth that we are all 
individuals. Nor would I say that all nationalism in Europe will 
necessarily be for the best. You cannot spend 70 years equating 
nationalism with illiberalism and Adolf Hitler and then be shocked that 
the belief that you have demonized is represented at times by 
illiberals. Europe has made its bed and it's going to have to lie in 
it. If liberals do not own nationalism, it will inevitably become the 
property of illiberals.
    But I would say that nationalism is a necessary thing, and that if 
you don't have it or if you try to repress it, its space will be filled 
by other kinds of group identities that are fundamentally incompatible 
with democracy. In other words, I regard nationalism as an important 
and necessary force. I disagree with those who argue that nationalism 
was responsible for Europe's fall. I agree, instead, with Adam Smith; 
Europe rose because it was divided into competing units. Nationalism as 
the cause of Europe's rise, not Europe's fall.
    So part of the reason for the rise of populism in Europe is that a 
narrow and anti-national elite political consensus left no space for 
nationalism. Nationalism has therefore made its own space. But this is 
only part of what's going on. Another part are specific policy errors 
that Europe has made and that the U.S. has, especially since the end of 
the cold war, indulged and supported. If we go back to the immediate 
post-1945 years, we will see that the U.S. approach to stabilizing and 
democratizing Europe, or at least Western Europe, rested heavily on the 
belief that democracy cannot exist without reasonably high and steady 
levels of economic growth. At the least, there can be no Great 
Depressions.
    Thus, all of the U.S. initiatives in post-war Europe--from the 
European Bank for Reconstruction and Development--we now call it the 
World Bank--to the IMF, to the Marshall Plan, to the GATT--it's now the 
World Trade Organization--and, yes, even NATO--were fundamentally 
economic. This belief drew on a diagnosis about the causes of the rise 
of the Nazis and the origins of the Second World War, which was 
fundamentally liberal. The resulting, largely liberal, strategy was 
well informed and extremely successful.
    If I had to sum up that post-1945 U.S. strategy, it was to make 
economic changes to preserve the political order. What do we do now? We 
do precisely the opposite. The apple of the EU's eye is the euro, 
which, as the Obama administration agreed during the euro crisis, must 
be preserved at all costs. The EU therefore pushes the forces of change 
away from its economic system and into the political systems of its 
member nations--such as Greece and now Italy. And the U.S. supports the 
EU in this error. We now prioritize economics over politics. After 
1945, we did precisely the reverse.
    The EU likes to boast that the European economic model is different 
from that of the United States. By this, the EU means that the European 
model is low growth. And the EU regards that as a good thing, 
regardless of how much youth unemployment it leads to in Spain. But it 
is worse than that. With the EU's approach to Brexit and, for example, 
its impending copyright law, the EU has reached the stage where it 
simply tries to chain the other guy down or make as much money as 
possible by suing him. In other words, the EU does not just back a low-
growth model, it has abandoned its hopes of becoming a leading digital 
online power and is now much more interested in trying to insulate its 
low-growth model by reducing growth elsewhere.
    Of course, I would be the first to admit that Europe's growth 
problem is not all the EU's fault. All over Europe, and indeed in the 
United States, national policies mirror and exacerbate the EU's 
policies. But virtually everyone recognizes that, just as the EU 
claims, the EU and European economic models value social protection 
over growth. But at some point--and we are well past that point--Europe 
needs to emphasize growth, for the same reason that it needed growth 
after 1945. Democracies cannot tolerate persistently high levels of 
unemployment. It is a sure bet that voting publics will react to low 
growth and high unemployment somehow, likely by blaming the parties in 
power and voting for new ones.
    The first major error we have made is, therefore, economic. The 
second major error we and Europe have made is to neglect security. More 
specifically, the U.S. has sought to outsource the responsibility for 
European security to the Europeans and the EU. This is the culmination 
of a long-held American wish, one expressed almost as vehemently by 
President Eisenhower as was it was by Presidents Obama or Trump. But no 
matter how long or how vehemently we wish for this, it will not work 
because the Europeans and, in particular the EU, lack the willingness 
to provide for their own security. I regret this, but I see no point in 
kidding ourselves.
    The threats to European security today come from two quarters: 
Russia and the Mediterranean. The European response to the Russian 
invasion and dismemberment of Ukraine has been a set of modest and 
largely symbolic sanctions and, except for the NATO member states that 
border on Russia, no meaningful increases in defense spending at all. 
In other words, an absolute and complete failure to respond in any 
significant way whatsoever. In the Mediterranean, Chancellor Merkel, in 
line with Germany's dual role as America's worst ally and Europe's most 
selfish power, adopted a cataclysmically irresponsible open borders 
policy, a policy which rested on no consultations at all and which 
embodied nothing more than a politically foolhardy sense of guilt.
    But the problem is deeper than that. Americans are remarkably 
gullible in their acceptance of the belief that the EU is our friend 
and are equally and remarkably unwilling to overlook repeated EU 
statements that it views the U.S. as a rival. As EU President Donald 
Tusk put it in early 2017, quote, ``It must be made crystal clear that 
the disintegration of the EU will not lead to the restoration of some 
mythical, full sovereignty of its member states, but to their real and 
factual dependence on the great superpowers: the United States, Russia 
and China. Only together can we be fully independent.'' Close quote.
    The point of this is, indeed, crystal clear. President Tusk classes 
the United States with Russia and China. I suggest we take him at his 
word and treat him with as much consideration as he treats us. It is 
time for us to recognize that the EU is an open and declared enemy to 
the role that the U.S. assumed in Europe after 1945. At the EU level, 
the fundamental problem, the reason why the EU takes this approach, is 
that for the EU everything is political. The point of EU defense 
initiatives is not to improve Europe's defenses. It is to reduce the 
defense sovereignty of EU's nation-states, and to diminish NATO in 
general, and particularly the American role in the defense of Europe.
    The point of the euro is not to make the European economies work 
better. It is a political instrument for European unity. The point of 
having an EU foreign policy, or a border force, is not to do these 
things better. It is to elevate Brussels and reduce the role of the 
nation-states of Europe. This strategy has been remarkably successful 
on its own terms, but it neglects one key point. Strategy, security, 
the economy, the border, foreign policy--all of these things are issues 
with realities of their own. By treating them merely as political 
instruments for the greatness of the European Union, the EU shows it 
prefers a show of greatness to the reality of achievement in any of 
these areas.
    At the level of national politics, the rise of populism is 
therefore not surprising. If you are an established political party in 
a democratic political system that offers little meaningful choice, I 
would suggest that an approach which combines low growth, low levels of 
job creation, high levels of unskilled migration, increasing levels of 
supranational control, a rejection of the assimilative force of 
national identity, and lashings of deeply felt guilt are unlikely to 
increase your vote share with the public. If you want to provoke people 
into voting against you, however, all of these things make up an 
excellent strategy.
    That is the path that Europe has followed. And it is the path that 
the U.S. has endorsed and enabled. This path is a foolhardy one. The 
problem is that we are now so far down it that backing out will be 
extremely difficult. In too many European countries, there are too few 
credible voices outside the consensus who can lead a move away from it 
and move back to a path of sovereign national democracies, a restored 
balance between social protection and economic growth, and a 
transatlantic security alliance that rests on controlled borders and 
credible deterrence against the Russians. But that is the right path 
for us to follow, nonetheless.
    Mr. Tiersky. Ted, thanks for that. You put a lot on the plate--
questions of the proper understanding of nationalism, the role of 
growth. You've tied together economics and the strategic plane to 
politics in a very compelling way.
    Let me immediately pass the floor to Paul for his remarks.
    Thank you.
    Dr. Coyer. Thank you. I'm going to address the issue of nationalism 
and national identity as well. I'm going to leave out much of what Ted 
said--actually, I have a chapter coming out in a publication from 
National Defense University Press next month. That's coming out of a 
conference at which I gave a keynote in August. So I agree with Ted's 
take on that.
    Ted and I are both historians, so I want to take a bit of a 
historical perspective to start with. This is November 2018. Can any of 
you remember 100 years ago what happened? [audience comment] Not 
Versailles, the armistice. So you were on the right track. In 10 days, 
we will be observing the hundredth anniversary of the ending of the 
First World War, a war which has been blamed, to a large degree, on the 
passions of nationalism, just as the war that followed that would be. 
And today, we see debate over the virtues and vices of national 
identity, national sovereignty, and the nation-state vis-a-vis growth 
and the importance of supranational institutions and more global 
governance that is strikingly similar, in many ways, to that which 
occurred in the aftermath of the Great War.
    The Brexit vote, the election of Donald Trump here in the United 
States, and the surge of what has been referred to in a pejorative 
manner as populist and nationalist movements throughout the West are 
only the opening salvos of what I am convinced will be a mammoth 
struggle over ideas regarding national identity versus cosmopolitanism, 
more local national governments versus transnational government 
institutions, the importance of identity in general, and the impact 
that those ideas will have on the shape of the international order.
    It is conflicting attitudes toward these ideas, more than anything 
else, that in my view is the cause of the disconnect that we see 
currently between President Trump and many Western European leaders. A 
group of European scholars have argued in an essay last year regarding 
the EU that the originally envisioned European integration project has 
become overtaken by a secularizing, progressive ideological agenda, at 
odds with the project envisioned by many of the EU's founders, which 
vision was more grounded in Europe's Christian and classical cultural 
roots, and which gave room to distinctive national and regional 
identities. According to these scholars, the project was conceived and 
initiated in a very different cultural ecology than that which exists 
among Europe's ruling class today.
    They point to Christianity and Europe's classical heritage as being 
the foundation of European culture, arguing that as that cultural 
foundation has eroded, quote, ``the loss of that cultural horizon in 
the process of European integration after the Second World War can be 
explained by the secularization of European societies and by the turn 
away from classical values in favor of the technocratic, progressive 
agenda of scientifically informed societal management.'' One of the 
things that Alex didn't mention from my bio is that I'm an associate 
professor at the French Army's version of West Point. And I get a 
first-hand view in France of this struggle within Europe and among 
themselves over these sorts of values.
    To a large degree, the scholars I just referenced that wrote that 
paper last year blame this cultural shift I've described, and they 
described, and the divergence of attitude between the EU's ruling 
elites and vast swaths of European citizenry toward fundamental issues 
such as tradition and the importance of national identity and 
sovereignty for the position within which the EU finds itself today, in 
which the foundations of political and popular support for the EU 
project and European integration are increasingly shaky. Along with 
these authors, I believe that a renewed emphasis on the importance of a 
healthy nationalism does not require a retreat from European 
integration, so long as that integration is reconceived to be more in 
line with the vision of its founders, rather than reflective of the 
progressive agenda that has come to dominate it.
    The United States certainly needs a strong, unified, reliable, and 
prosperous, and democratic partner on the other side of the Atlantic. 
And European integration can play a key role in ensuring that that type 
of partnership exists and continues to exist, so long as the European 
project gives more space to such issues as tradition, identity, and 
national sovereignty. Unless it does so, the bases of its popular 
support will continue to be threatened, and the disconnect between the 
EU's elites and vast swaths of European citizenry over these issues is 
going to increasingly threaten the future of the whole political 
project.
    In the context of highly contested visions during the 1980s of the 
form that should be taken by the emerging European Union at the time, 
then-British Prime Minister Margaret Thatcher warned European leaders 
against their current course in her famous speech in September 1988 in 
Bruges. She said, quote, ``To try to suppress nationhood and 
concentrate power at the center of a European conglomerate would be 
highly damaging and would jeopardize the objectives we seek to achieve. 
Europe will be stronger precisely because it has France as France, 
Spain as Spain, Britain as Britain, each with its own customs, 
traditions, and identity. It would be folly to try to fit them into 
some sort of identikit European personality.''
    ``Indeed, it is ironic,'' she went on, ``that just when those 
countries such as the Soviet Union, which have tried to run everything 
from the center, are learning that success depends on dispersing power 
and decisions away from the center, there are some in the community who 
seem to want to move in the opposite direction. We have not 
successfully rolled back the frontiers of the state in Britain, only to 
see them re-imposed at a European level with a European super-state 
exercising a new dominance from Brussels. Certainly we want to see a 
Europe more united and with a greater sense of common purpose. But it 
must be in a way that preserves the different traditions, parliamentary 
powers, and sense of national pride in one's own country; for these 
have been the source of Europe's vitality through the centuries.''
    That vision that Prime Minister Thatcher gave of European 
integration, rather than one in which the principle of solidarity is 
given only lip service, decisionmaking authority becomes increasingly 
distant from and unaccountable to the European grassroots, and 
attachment to traditional sovereignty and national identity are 
disdained, is one that would address the concerns of those within 
Europe who have been leading the charge against the EU as it is now 
constructed and conceived, and would strengthen the space of popular 
support among Europe's citizenry.
    It would also help with the geopolitical challenge posed by Russia, 
in my view. Like Ted, I have written quite a bit on Russia for Forbes 
and other publications. I have had my share of troll attacks. The 
Russians have selected me; I will not fly Aeroflot anytime soon. But 
like Ted, I have to say that it is absurd, I think, to put it bluntly, 
to blame everything that's happening in Europe, the rise of what are 
called populist and nationalist parties, on Russia. However, Vladimir 
Putin has quite shrewdly played upon the sense among large portions of 
the West that its leaders no longer share their appreciation of the 
importance of faith, family, tradition, and national identity. He has 
played on this theme in order to increase his soft power appeal 
throughout major segments of the West, while at the same time to create 
a positive brand for Russia, whose reputation has, to put it mildly, 
taken quite a hit in the past few years, and which has been therefore 
in desperate need of rebranding.
    The Kremlin's skillful propaganda in this regard, which has been 
interwoven with its propaganda regarding the West turning hostile to 
its Christian civilizational roots, the implication, of course, being 
that Russia remains traditional and Christian, has found broad 
resonance within Europe and much of the rest of the world, despite the 
obvious fact that Vladimir Putin is hardly a paragon of Christian 
virtue, nor an exemplar of ethical Christian leadership.
    Early in President Trump's presidency, Guy Verhofstadt, the EU 
Parliament's Brexit negotiator and former Belgian prime minister, gave 
a speech in London in which he said that Europe faces a threat from 
Donald Trump. EU leaders also uniformly speak about how national 
identity is also a threat, using pejorative language and portraying it 
as a uniformly dark and fascist force.
    Many Europeans, however, see national identity, sovereignty, and 
tradition as a moral good, and are therefore much more in line with 
President Trump's thinking in this area than they are with the take of 
the EU leaders, that see supranational institutions and the diminution 
of national identity and national loyalties as necessary for peace and 
prosperity in Europe. Increasingly, the United States and many of our 
Western allies are being led by those to which the late Samuel 
Huntington, in his 2004 essay, ``Dead Souls,'' a phrase borrowed from a 
Sir Walter Scott poem of the same name, referred to as a, quote 
``denationalized elite who have forgotten the mystic cords of memory, 
while the American people have not.'' He was referring to the American 
context when he wrote this.
    The deep divide within Europe on the issues of tradition, 
sovereignty, and national identity and what constitutes Europe's 
historic cultural values is one reason why these issues need much more 
reflective and nuanced attention than, for the most part, they have 
been receiving from EU's ruling class. The restoration of a sense of 
solidarity between these leaders in the West and our citizenry is 
necessary to the future of liberal democracy. Unless this large gap in 
perceptions between European elites and much of the European citizenry 
is addressed, not only will it continue to see the disintegration of 
the political bases of support for the European project, but the 
Kremlin will continue to have an open opportunity to continue to 
increase its influence and standing within our own political 
constituencies, to the detriment of us all.
    The value and importance of transatlantic ties is not in question, 
despite some of President Trump's rhetoric that has caused heartburn. 
Whether U.S.-European relations are headed off a cliff, as some 
suppose, depends upon which Europe one is talking about: the Europe 
envisioned and espoused by European leaders of today in which a 
centralized authority, increasingly divorced from much of the people it 
governs in terms of its governing philosophy and aspirations, or the 
traditional Europe we see arising in opposition to the EU's leaders, in 
which European cooperation is to be based upon sovereign, independent 
nation-states cooperating because it is in their national interest to 
do so.
    A similar debate over all these issues--one that reflects starkly 
differing worldviews--is taking place both within Europe and here in 
the United States. And it is the outcome of this debate on both sides 
of the Atlantic that will determine the nature and shape of the 
transatlantic relationship going forward.
    Mr. Tiersky. Thanks, Paul. I take away a number of things from your 
presentation. Your description of a European integration that, while it 
has its challenges, in your view, need not necessarily be in retreat. A 
united Europe can play a key role as a partner to the United States, 
but under specific circumstances and not based on an identikit 
strategy. I also take away your description of Putin being able to play 
on the differences between the elites and the citizenships--the elites 
who--you referenced Samuel Huntington's ``Dead Souls.''
    Let me pass over now to Jeff Rathke for his views before I engage 
you all in responding to some of those points.
    Thanks.
    Mr. Rathke. Thanks, Alex. Thanks also Kyle Parker, and to everyone 
associated with the Helsinki Commission. And I want to recognize at the 
start the important work that the commission does, and my appreciation 
for the invitation. I also want to thank those who are here, who made 
the effort to come in person, but also those who are watching online.
    I'm speaking today on the one hand as president of the American 
Institute for Contemporary German Studies, but also as someone who 
served as a diplomat for a long time in Republican and Democratic 
administrations and worked mainly on U.S. relations with Europe--both 
political relations as well as defense and security.
    So an important question brings us here today--whether the United 
States needs a new approach to Europe. I have to say, I've heard 
relatively little about what the new approach should be thus far, so I 
want to try to contribute a bit to that. It is unquestionably true that 
the international landscape in security terms, in economic terms, and 
in political terms has been changing for quite a few years.
    The United States and its allies face a revanchist Russia that 
attempts to alter borders by force in Europe, and also seeks to exploit 
the social and political vulnerabilities in our societies, to weaken 
our cohesion, and to undermine our democracies. I would agree with both 
the previous speakers that Russia does not create those 
vulnerabilities. It does seek to exploit them, sometimes with success. 
And so that is something we need to be vigilant about, even as we 
recognize that the divisions they exploit are largely of our own making 
and not of Russia's creation.
    Beyond Russia, we have the challenge from China expanding its 
international influence and its ability to project economic, political, 
and military power not only in the Asia-Pacific but also in Europe, 
which is a challenge to the international order. Proliferation of 
nuclear and missile technology in North Korea and Iran is a pressing 
concern. And international terrorism is an important threat. These 
geopolitical factors, I believe, are correctly diagnosed in the 
administration's national security strategy.
    Now, turning more particularly to Europe, which is the topic of 
discussion today, there has been a rise--regardless of how you want to 
characterize it--of nationalist or of anti-establishment political 
forces inside Europe over many years. And it has spread over time 
across much of the European continent. This is altering the internal 
politics in European countries. It's affecting the dynamics within the 
European Union. And it's affecting the relations among European states. 
Brexit is one example, perhaps the most prominent. But there are 
others.
    So the question for this panel, as I understand it, concerns U.S. 
policy toward Europe. Now, for seven decades the U.S. has had a 
remarkably consistent approach to Europe, I would argue, promoting a 
stronger and more integrated Europe so that it can play the role of a 
partner to the United States in transatlantic security, in shaping the 
global economy, and in responding to international foreign policy and 
security challenges.
    Now, that's not to say we haven't had disagreements with Europe on 
many issues over the decades. There have been some quite serious ones. 
But on just about any major international problem that the United 
States has to confront and has tried to confront--whether by Republican 
or Democratic administrations--the United States has inevitably sought 
the partnership and support of European countries in that endeavor. 
That's true of military operations, such as the wars in Iraq and 
Afghanistan, the fight to eliminate the so-called Islamic State, the 
intervention in Libya, and the wars in the Balkans, if you go back 
farther.
    When it comes to the economic relationship, the ties across the 
Atlantic are the most intense and important trade and investment 
relationship in the world. One trillion dollars annually in two-way 
trade, 5 trillion [dollars] in mutual investments. The U.S. and Europe 
have sought over the years to reduce tariff and non-tariff barriers, 
because they realize that the potential gains to the transatlantic 
economy are enormous given the breadth of our relationship. Now, those 
negotiations have not always succeeded. And there's certainly much more 
to be done.
    The United States also works together with Europe to fight 
proliferation, to counter terrorism, to advance democracy and human 
rights, and to promote international norms and standards that favor 
freedom and the rule of law.
    Now, sometimes there is an element of nostalgia that comes with 
discussion of the transatlantic relationship. I think both previous 
speakers have tried to avoid that, and I appreciate that, because, you 
know, while the U.S. security alliance with Europe brought about what I 
would argue is the most monumental success of the late 20th century--
the triumph of democracy and liberty in the standoff with the Soviet 
empire--sentimentality is not a guide for the policy choices that we 
face today and for the future.
    So another way of formulating the question might be this: Do the 
changes in the international environment in recent years mean that the 
transatlantic instincts that leaders of both parties have cultivated 
since the end of the Second World War are no longer valid? I would 
contend that the logic behind those instincts is as compelling as ever. 
When you look across the Atlantic, the United States finds the largest 
collection of economically advanced, militarily capable, and 
politically like-minded countries, that are prepared to take political 
risks and stand with the United States in confronting a challenge. 
European countries and institutions like NATO and the European Union 
are our partners of first resort. And it is clear that the United 
States benefits from and should seek partnership with Europe, unless we 
choose to deliberately do things alone, which is a choice.
    Now, getting to the policy differences that we have with some of 
our European friends and partners, those could be reasonably be raised 
as an objection. The Nord Stream II gas pipeline is one example. But I 
believe that an effective foreign policy for the United States is one 
that seeks to establish priorities that are achievable within the 
resources that we have available to us. And if we look at the world 
through a lens of great power competition, as I believe this 
administration does, in which there are five crucial challenges--
Russia, China, North Korea, Iran, and international terrorism--U.S. 
success in meeting any of those challenges will be greatly enhanced by 
partnership with Europe.
    Economically, it is hard to see the European Union as a greater 
challenge than China, for example, and to portray the European Union as 
a foe is, frankly, absurd. The United States and the EU together 
account for 46 percent of global GDP. Our influence is enormous 
together on global economic issues. Alone, the United States is 24 
percent of global GDP, and necessarily wields less influence in trying 
to shape the future of the global economy than we would in partnership 
with Europe.
    I would remind you that the majority of U.S. foreign investment is 
in Europe. Fifty-eight percent of our foreign investment is in Europe. 
And Europe is the largest source of foreign investment in this country. 
Sixty-nine percent of foreign investment in the U.S. comes from Europe. 
So I think it is not particularly helpful to U.S. policy formulation to 
demonize the countries that share the most with us in terms of their 
economic models, their democratic values, and their willingness to take 
actions beyond their own borders to achieve common goals.
    Now, it's a separate question whether the changing politics inside 
Europe means that these partners should be somehow less attractive. If 
you look at European foreign policy, which is a complicated mix of 
national policies and policies coordinated at the EU level, let's look 
at European Union sanctions on Russia, for example. Those were adopted 
as an EU policy by consensus. And they have held since Russia's 
invasion of Ukraine in 2014. Now, if we raise the question of whether 
we would have a more effective European response if it were not 
coordinated at the European Union level, I think the answer is obvious.
    And it becomes even more obvious now when you look at the number of 
countries that want the European Union to end its sanctions on Russia, 
because they don't want to make that economic sacrifice anymore. Is it 
in the United States' interest to have effective sanctions against 
Russia or not? If the answer is yes, and I believe it is, then working 
with the European Union is the way to accomplish that. Working with not 
only leaders of the European Union--that is, the European Commission 
and the European Council--but with the leaders of European Union member 
states. I think previous speakers have both pointed out that the 
national leaders remain important. And I would argue that they remain 
the most important factors in European decisionmaking, especially on 
crucial foreign policy issues. There is no Europe that is driven--in 
crucial foreign policy issues--by faceless bureaucrats in Brussels or 
by the European Parliament. It is the engagement and the priority-
setting of the national leaders in the European Union that are 
ultimately decisive.
    And I would say that we see the European Union is able to act in 
unison, despite the sometimes fractious politics within Europe. Let's 
look at one example, which is the retaliatory tariffs that the European 
Union imposed on the United States after the United States imposed 
national-security-based tariffs on imports of steel and aluminum from 
the European Union. Now, it's a separate question whether there's 
really a national security basis for those kinds of sanctions, but I 
think it belies the suggestion that Europe is not able to act together 
when it sees its interests at stake.
    But there are other cases where the European Union has failed to 
reach consensus on taking unified action. One example in recent years 
was the European Union being unable to agree on a resolution that was 
up at the United Nations that criticized China's human rights record. 
Now, that resolution was torpedoed by Greece. Greece, which has been a 
recipient of a significant amount of Chinese investment since the 
European and global financial crisis in 2008 and 2009. So China's 
growing economic stake in Europe, and China's promotion of arrangements 
like the 16+1, raised major concerns in Europe, as I think they do for 
the United States, that China will try to use its economic influence to 
divide Europe and prevent the European Union from achieving common and 
critical positions on matters of concern to Beijing.
    There's also a rising concern in many European countries about 
investment by China in Europe--and from other countries, not just 
China, investment in strategically significant industries. Currently, 
that's a national competency. It is the responsibility of EU member 
states to have their own national standards. But this has led to 
proposals for an EU-wide investment screening framework. It's currently 
under discussion, and has not been concluded. But if the United States 
sees China's economic model and its predatory capitalist approach, its 
theft of intellectual property, and its attempt to use its 
infrastructure investment to gain political influence, it seems to me 
obvious that the United States has an interest in a robust and unified 
European response, rather than piecemeal national efforts that will 
allow countries to be picked off one by one.
    Now, you could also look at this as a situation that the United 
States could seek to exploit for its own national benefit. In that 
sense, the question would be: Is anti-establishment or populist or 
nationalist politics an opportunity for the United States or a threat? 
Does the rise of populism and its stress on sovereignty present new 
opportunities to promote U.S. interests more effectively? In other 
words, is there a silver lining in that cloud?
    I would start by looking, again, at the EU sanctions on Russia. In 
international economic diplomacy, the EU has had much more at stake in 
its relationship with Russia. And it has made much greater sacrifices, 
frankly, than the United States has economically in trying to impose 
costs on Russia for its invasion of Ukraine.
    Now, it's a separate question whether there could have been other 
responses. For example, the Obama administration was unwilling to sell 
lethal arms to Ukraine. That's a policy that's been reversed by the 
Trump administration. I think that's a topic that's worthy of debate 
and discussion, especially critical discussion with our European 
friends and allies. But it's clear that the Europeans have made greater 
economic sacrifices in trying to constrain Russia in its revanchist 
project in Europe.
    And regardless of what you think of the Joint Comprehensive Plan of 
Action (JCPOA), it is also true that European Union countries were 
willing to impose substantial costs on their own firms in order to try 
to bring Iran to the negotiating table. Again, that's separate from 
discussing the merits of the JCPOA, which is perhaps worthy to do, but 
I don't think it's really the topic of this panel. But the point is, 
Europe is able to act when we forge common cause on crucial issues, and 
that benefits, in my view, the United States.
    And more broadly, I think the benefit to the United States in 
populist contagion is chimerical. We can seek it, but we're never 
really going to find it. It is precisely the nationalist governments in 
Europe that exhibit the greatest sympathy for Vladimir Putin's Russia. 
If you look at Italy, Italian Interior Minister Matteo Salvini, who's 
the leader of the far-right Lega Party, which now has the highest 
proportion of public support--according to opinion polls--recently 
visited Moscow. He is vocal in his opposition to sanctions on Russia. 
Hungarian President Victor Orban has called for lifting sanctions, as 
have the Czech Republic and Greece. Austria is sympathetic. And by the 
way, the right-wing FPO, which is part of the ruling coalition in 
Vienna, even concluded a cooperation agreement with the United Russia 
party of President Putin.
    Poland is the one exception to that trend. It is a nationalist-
oriented government that remains tough on Russia. But it's the 
exception. There is a high degree of correlation between nationalist 
governments in Europe and pro-Russian sentiment. So if Russia is one of 
our top geopolitical competitors, one of the top two challenges we face 
if you take the hierarchy of the administration, why should the United 
States be encouraging Moscow's best friends? I don't see it.
    Now, I think there's a legitimate criticism of European leaders. 
There has been a lack of sufficient creativity and political 
willingness on the part of many European countries, and at the European 
Union level, to play a stronger international role, and to be proactive 
in trying to find issues around which the United States and Europe can 
coalesce. So I don't mean to try to suggest that they don't bear a 
share of responsibility for finding the substantive elements of a 
future-oriented agenda between the United States and Europe. But I 
think our focus today is on U.S. policy toward Europe, which is why 
I've directed my remarks there.
    I would conclude by saying that when you get to burden sharing, 
which, Kyle, you mentioned at the very start, I think we need to be 
clear about what we seek from burden sharing. There is a focus on 2 
percent of spending, but I think Ted Bromund also raised the question 
about what role burden sharing plays. I heard--you can correct me if I 
misunderstood--a criticism of the U.S. that it has tried to outsource 
the security relationship to Europeans and to the European Union. I 
think there's a tension, though, between whether we want Europeans to 
bear their share of the security responsibility for transatlantic 
security, for our shared security--whether we want them to do that or 
not.
    I think we should have European countries bearing their share of 
the security burden. They have not done as much as they should have 
over the years. I think the way to get there is through persistent, 
effective diplomacy that takes American policy desires and finds ways 
to promote those in ways that build European support, not just of 
governments but of publics as well, for this common security agenda.
    So I would just end by saying I think rather than being an open and 
declared enemy of U.S. objectives in Europe, as Ted Bromund put it in 
talking about the European Union, I would say the Europeans are our 
closest allies, our most effective partners when you look at the 
challenges we face in the world. And we need to focus on ways to 
collaborate with them, rather than to demonize them and to try to stoke 
animosity across the Atlantic.
    Thank you very much.
    Mr. Tiersky. Thanks, Jeff.
    I see in these three excellent presentations really an opportunity 
for a classic debate to break out, but I'm going to try to manage this 
as a conversation rather than a debate format. Let me ask a couple of 
kind of framing questions before I go back to the audience, because--
I'm sure there's a lot that the audience would like to jump in on here. 
Clearly some different perspectives were expressed on the level of 
leadership in the European Union currently and U.S. policy, and where 
it should be going.
    But let me start with asking Ted, perhaps, to respond to Jeff's 
last point, which is the tension between Europeans bearing their fair 
share for providing security in their own region, as opposed to the 
tension that we have with the outsourcing debate. If you could--and 
we've got a number of things on the table, so I'll ask your responses 
to be relatively brief, in the 2-minute range.
    Dr. Bromund. That's a really excellent question. Let me start off 
by saying that in my view the point of increased European spending on 
defense is not primarily to acquire additional military capabilities. 
Those are, of course, desirable and they are necessary. But that is not 
the main point. The main point of increased European defense spending 
is to reinforce the American political consensus in favor of a strong 
American contribution to European defense. It has been an argument for 
generations that the political consensus in the U.S. in favor of NATO 
is not sustainable unless the Europeans pay a fair share and are seen 
by the American people to pay a fair share. So I am opposed to 
outsourcing security to the Europeans or to the European Union and I 
want them to pay a fair share precisely because that is the only way to 
ensure that we also play a role over the long run.
    Let me explain what I mean specifically by ``outsourcing'' with 
some historical examples. In the 1990s, after the end of the cold war, 
we did everything we could under two administrations to try to leave 
the Balkan wars to the Europeans. We eventually were forced to 
intervene. I'm very glad that we did. But we delayed, and delayed, and 
delayed. After the cold war, reductions in U.S. forces in Europe were 
certainly necessary and warranted. But they went much too far. We took 
over 90 percent of our forces and, under the Obama administration, all 
of our armor out of Europe. There was excessive U.S. disinvestment in 
European security. When you take a look at crises on the European 
border, in my view, we have tried and tried and tried to leave it to 
the Europeans, only in the end to belatedly have to get involved. Libya 
is the classic example here.
    So I am unhappy with the U.S. approach that doesn't take a strong 
leadership position on security issues in and around Europe, that 
outsources. But I am equally unhappy with a European underspend 
approach, precisely because it reinforces our desire--which we have had 
since the Eisenhower administration--to try to leave all these things 
to the Europeans. These are not contradictory factors. They are 
complementary problems. And they can only be solved by addressing both 
of them together.
    Mr. Tiersky. Let me shift gears on a question to Paul and go back 
to something that was present in your presentation. You described the 
potential for a healthy nationalism.
    I think, Ted, if I jotted this down correctly, you used the phrase 
``nationalism is necessary'' and it's become a ``dirty word'' in 
Europe.
    I would love for the two of you, but let's start with Paul, to help 
us understand where the line is between a healthy nationalism and a 
potentially unhealthy nationalism. I think this gets to one of Kyle's 
framing points about Germany. Are we concerned about a nationalism that 
would develop in a manner that would be contrary to peace and security 
on the European continent and, therefore, to the United States' 
interests?
    Paul, I'd like for you to take a crack at that and maybe Jeff 
after. Thanks.
    Dr. Coyer. Sure. This is a good question. And just to reinforce, 
yes, I do believe there are healthy and unhealthy nationalisms.
    One of the things that I disagree with in the rhetoric that we hear 
coming out of EU leaders uniformly is that nationalism is always seen 
in the pejorative and they don't recognize the fact that there is a 
healthy form of nationalism. As Ted alluded to, it was in the context 
of the modern nation-state that we developed modern democratic 
governance and representative governance, human rights protections, 
that sort of thing, the rule of law. Liah Greenfield of Boston 
University and many other academics have written about this, that 
without the modern nation-state we would not have democracy.
    Getting to your question of where to draw the line, I don't think 
it is exactly a fine line, but there's a long debate that we don't have 
time to get into now over creedal nationalism, which we see in the 
United States, where we are defined by a creed that came out of the 
Declaration of Independence and the Constitution, as opposed to an 
ethnic nationalism that you see prominently in places like Russia. It 
isn't just ethnic there, it's more cultural; but there's an ethnic 
component to it, with the Russian world being a big, supposedly unified 
culture in the post-Soviet space.
    I have Serbian friends. The Serbs constantly get criticized, 
sometimes justifiably when you look at their history, for an ethnic 
Serb nationalism that is a bit virulent. So when you do have a 
nationalism that, in my view, is defined by an ethnicity more than 
anything else, that's particularly where you need to double down on 
democracy promotion and the rule of law and transparency, that sort of 
thing.
    Philosophically speaking, a healthy nationalism, in my view, is one 
that appreciates one's own traditions and culture while also 
appreciating those of other people. There's a point that's made by a 
friend of mine, Yoram Hazony, an Israeli scholar that just came out 
with a book called ``The Virtues of Nationalism,'' a title that tells 
you where he's coming from. And one of the things that he says is that 
we should try to inculcate a type of nationalism that is characterized 
by humility in our own national distinctiveness, a pride in it, but not 
an overweening pride; a sense of our own distinctiveness that also is 
tempered by humility, knowing that we are not the be-all and end-all of 
cultural achievement.
    When you can look at other cultures--my wife, for instance, is a 
Venezuelan. I've lived much of my life overseas. When you look at other 
cultures and can appreciate their distinctiveness and where they might 
have some aspects of their culture that are superior to your own, that 
can provide a limiting effect on a tendency toward an overweening 
pride.
    I mean--this could be the topic of a whole daylong discussion, 
obviously. The chapter that I told you about that I wrote on this issue 
approaches nationalism specifically from an ethical point of view. And 
that was only 20 pages long, and that could easily have been 2[00] or 
300. So I'll end my brief remarks there.
    Mr. Tiersky. We appreciate the executive summary.
    Thank you. [Laughter.]
    Jeff, over to you.
    Mr. Rathke. Thanks. So I wanted to touch on a couple of things.
    First, I think it's important to remember that support for NATO in 
the United States is at an all-time high. On the one hand, that 
suggests a commitment by the American public to the transatlantic 
security alliance. I think it's also worth noting at the same time that 
there is a divergence, an increasing divergence, in the views of 
people, based on their political affiliations in the United States, 
toward NATO. I think, while there has been a dramatic rise among 
independents and supporters of the Democratic Party in their support 
for NATO, among Republicans it has declined, which I think is certainly 
regrettable. I think it's probably a function of the administration's 
harping on the 2 percent target. But nevertheless, taken as a whole, 
American public support for NATO is increasing.
    I would also highlight that if you look at public support for the 
European Union across EU member states, you find that in many of the 
countries whose governments are most critical of Brussels, you actually 
have the highest level of public support for their membership in the 
European Union. So I think it's a more complicated issue than is 
sometimes presented in the media, as far as publics being frustrated 
with Brussels and questioning the value of the European Union.
    But I wanted to come back to the question you asked about Germany, 
and which Kyle also mentioned at the start, and Germany's role. Kyle, 
the way you put it is: If Germany spent 2 percent on defense, would we 
have a problem in Europe? I would go back to the always-quotable Radek 
Sikorski, former minister and defense minister of Poland, who said 
quite a few years ago that he fears German weakness more than he fears 
German strength. And I think that is still the case. Germany needs to 
do more in the defense realm. Germany acknowledges it, but the progress 
has been very, very slow, slower than anyone, I think, would like. But 
I don't think there's any real objection to Germany increasing its 
commitment to the transatlantic alliance. Instead, I think there's just 
frustration that it hasn't been going as fast as people would like.
    That has deeper roots within the German public, among the political 
parties. And as much as we might like to see it go faster, I'm not sure 
it's going to speed up even with a change in the Christian Democratic 
Union leadership, frankly, because it brings up questions of 
complicated coalition politics--what government can be formed if there 
ever is a change of government, and what political coalition will move 
Germany faster toward that goal.
    Mr. Tiersky. Colleagues and friends in the audience, I think I've 
stood between you and the panel for long enough now. I would love to 
take some questions from the audience and keep my own in abeyance for 
now.
    I see a hand in the back on the right. Please identify yourself, if 
you could.
    Questioner. Hi. My name is Ben. I'm an intern with Congressman 
Cohen.
    My question was, I understand the point that you were making on 
European technocratic authenticity separate from the people who can be 
difficult to support, but what is the ideal format for the European 
Union that has this sovereign diversity of strength that you see? Is it 
a U.N.-style secretariat? Does it continue to have a transnational 
parliament? Does it focus more on the Council and backroom deals? I'm 
not quite seeing how it maintains the sovereignty of strength and 
continues to include the people, if you have thoughts on that.
    Mr. Tiersky. Thanks. Let me add to that. If we find a different 
institutional framework for the European Union, I would like Ted and 
Paul both to respond to this because it also gets to, I think, Jeff's 
advocacy of the EU as a partner of first resort, I think was his word, 
on challenges internationally. If we find a different kind of 
governance structure that's more responsive to the public, as you've 
described, do we lose a kind of a partnership with the EU, and on what 
areas? How would that cooperation look under a different kind of 
governance structure, as well?
    Dr. Coyer. I can start and then we can move over to Ted, I guess.
    I think one place I would start would be the European Commission, 
which people in Europe don't feel is responsive to them. That needs to 
change.
    To answer the issue that Alex raised just now, I don't think a 
change in governing structure, however you look at it or redefine it or 
reshape it, necessarily means a reduction in American partnering 
capacity with Europe. I think that you can certainly do it in such a 
way where we continue that strong relationship.
    And I completely agree with much of what Jeff said, that we need 
that transatlantic relationship. I not only teach in France, I did my 
Ph.D. in Britain, travel there a lot, and of course we need that.
    Now, specifics how to structure it are harder to define and that 
would take some more careful thought. I would just start with the EC 
because that's the obvious target. That's the one that people point to 
the most as being unaccountable.
    Dr. Bromund. I'll pick up on that just quickly. I appreciate the 
question and I appreciate that it's a very serious one. I'm a little 
reluctant as an American to sort of sit here dispensing my purported 
wisdom about the way the EU should be organized, which, frankly, 
whatever I say will have absolutely no impact on what they do. So with 
all respect to what is clearly a very serious question, I'm not sure 
that this is something where American input is going to be very 
usefully offered.
    My personal instinct--and I emphasize personal--is that the way for 
sovereign democratic nations to cooperate is through the traditional 
mechanisms of interstate diplomacy. You can call that backroom deals 
for the European Council if you care to, I would call it diplomacy. 
Probably Woodrow Wilson would also have called it backroom deals. But I 
remain very supportive of that basic mode of operation, if only because 
I think diplomacy is the way that civilized nations do business and 
diplomacy is traditionally done by sovereign nation states.
    On the question of European partnership, well, let's look at the 
five big challenges. I agree there are rising concerns, but the EU has 
played, and European nations in general have played, a largely 
negligible role in concerns about China. And in my view, they will 
continue to play a largely negligible role.
    Europe does, of course, have a role in combating terrorism. I'm not 
sure that European efforts in the North African Sahel regions have been 
particularly successful.
    Europe is a nonfactor on North Korea, simply does not matter in the 
North Korean issue.
    And we come to Russia. Jeff mentioned the sacrifices that Europeans 
and the EU have made vis-a-vis Russian sanctions. Of course, there have 
been more economic losses due to sanctions in Europe than there have 
been in the United States because they trade more with Russia--or did 
trade more with Russia--than we do. But the Russians have invaded and 
occupied a nation in Europe and we are sitting here saying, oh, the EU 
has done wonderful things because it has imposed really some fairly 
limited and not always effective sanctions on the Russians and we are 
busy patting them on the back for this tremendous achievement. This is 
not a tremendous achievement.
    Jeff passed over Nord Stream 2 fairly quickly. In the midst of all 
of this supposedly brilliant sanctioning achievement, Germany is busy 
totally on its own backing and constructing a gas pipeline to Russia, 
which is absolutely going to have an infinitely greater restorative 
effect on the Russian economy than all the EU sanctions have had a 
negative effect.
    I am stunned by the paucity of the EU's and the Europeans' ambition 
in this regard. And I'm stunned by our willingness to give them credit 
for doing well when in response to a Russian invasion of a European 
nation they have done so little. Let's not pitch our ambitions here too 
low. If the EU and the Europeans want to play a serious security role 
in their own continent, the invasion of a European nation needs to be 
met with more than a few economic sanctions.
    Mr. Tiersky. Sure, Jeff, please.
    Mr. Rathke. Thanks. I'll respond to that point. I did not use the 
words ``wonderful'' or ``tremendous achievement.'' I said that the 
European Union's sanctions have made a greater economic impact than the 
United States' economic sanctions. And you're right, it's because 
Europeans previously did trade more with Russia. That's a function of 
geography, it's a function of Russia being a natural resource exporter. 
There's not exactly a value judgment behind that, I think.
    I think the fact is that, confronted with the invasion and 
occupation of a European country, there has been a relatively 
consistent European response. It could have been done more in other 
areas, I agree with you.
    But I think we also have to be honest about what the scope was for 
nonmilitary action in response to the invasion of Ukraine. That is, I 
think, a different and broader topic to discuss.
    I wanted to come back to the question about what's the right 
structure. Like Ted, I wouldn't want to prescribe, but I would 
highlight, for example, counterterrorism, which is clearly an issue of 
concern for the United States as well as for European governments and 
for Europe collectively. And if you look at the response since the 
attacks in Paris and in Brussels, for example, you see a greater role 
being played by European institutions in information sharing, things 
like passenger name recognition and so forth. On the European level, 
greater responsibility Europe-wide for things that contribute to the 
fight against terrorism and law enforcement.
    It seems to me that that benefits the United States because the 
more the Europeans are coordinated among themselves and sharing 
information, the easier it is for the United States to work with them 
rather than to work with 28 individual member States. So I think that 
suggests another area of benefit to the United States that we haven't 
talked about before.
    With respect to China and whether the EU will play a significant 
role, I think one of the interesting things this administration is 
doing is to partner with the European Union and Japan to try to address 
what they refer to as global economic issues, which is really about how 
to deal with China's growing international economic role. So I think 
that is an indication of readiness to engage with this U.S. Government. 
And I think that's a welcome thing. The greater collection of countries 
that are interested in open economies, the better for the U.S.
    Mr. Tiersky. Thanks, Jeff.
    I'd like to take another few questions from the audience if I 
could. I see a lot of hands. Great. Let me start in the corner, 
standing up.
    Questioner. Hi. My name is Erika Schlager. I'm with the Helsinki 
Commission staff. Thank you for this extremely interesting program this 
morning.
    I want to preface my question with a little comment on the 
definitional issue that was at the start of this panel, how we're 
describing various political parties today. And I certainly agree that 
the terminology that we have available doesn't seem to be as helpful as 
we might like.
    So extremist, populist, even left, right aren't necessarily very 
informative anymore and there may be a quick consideration of whether 
certain parties or political actors have fascist tendencies. I would 
like to hear more people discussing whether they have communist-era 
tendencies, whether some of the policies and practices echo somewhat 
the 1945 to 1948 practices that we saw and the takeover of communism in 
Central Europe.
    That said, I am now going to use the word ``nationalism'' since we 
sort of concluded our discussion there. And it seems to me that we're 
sort of talking about two levels here: U.S. policy toward what's going 
on in specific individual EU countries and then the U.S. policy toward 
the EU itself. And with respect to the nationalist voices--caveated use 
of that word--but with respect to the nationalist voices or parties or 
nonstandard parties that are emerging, it seems to me that one of the 
challenges or one of the problems that we face is that those 
nationalist parties and voices also tend to be the ones advancing anti-
human rights policies and anti-democratic policies. And I'm thinking 
about the extreme centralization that's taking place in Hungary, the 
rise in anti-Semitism and historical revisionism, stripping religions 
of their religious status, the purging of the supreme court in Poland 
and the reintroduction of the Soviet-era feature of lay judges and the 
end of the finality of legal decisions and the end of legal certainty.
    So are there nationalist voices that are also pro-democracy and 
pro-human rights? Because it seems to me, if you can't get those two 
things to go together, it's going to be hard for us to be neutral or 
supportive of a different kind of nationalism. Thank you.
    Mr. Tiersky. Please.
    Dr. Bromund. Well, I'll gladly take a crack at that one. It 
probably should have been obvious from our remarks, but I'll just spell 
it out here. I am rather skeptical about the value of a lot of these 
populist movements, however one sort of cares to classify them--not all 
of them, but most of them. And I largely agree with Jeff's comment 
that, although not all populist or nationalist movements in Europe are 
associated with the Russians, there is more of an alignment there than 
one might care to see.
    But I don't think we can necessarily stop there. If our answer to 
these populist or nationalist movements is to say ``We reject them 
completely, we need to go back to the old system,'' we're, therefore, 
left with a problem. Where did these movements come from in the first 
place? They came from the old system. So, obviously, something was not 
satisfactory in the previous setup and simply condemning the new 
developments without trying to sort of fix or revive or change the 
older system is probably not going to get very far. It's going to put 
us right back where we are today or maybe even a worse place.
    That really is the point of my argument, that we need to think 
about economic growth in Europe. I don't see how you have stable 
Christian Democratic or Social Democratic parties without reasonable 
levels of growth. I don't see how you have them without more awareness 
of Europe's cultural and, largely, Christian past, to take Paul's 
point. And I don't think you can have them without a meaningful 
approach to national security, which includes strong and reasonable 
border controls. If you don't have those things, I think you're going 
to be pushed in some undesirable or different--frequently undesirable--
direction.
    But you put your finger really on the core of the problem. We are 
where we are in Europe because of a series of policies and events that 
have happened over the last 70 years, many of which, in my view, were a 
mistake. And we are now in a position where the routes out of that 
series of errors are frequently very unattractive for precisely the 
reasons that you and Jeff and indeed Paul and also I set out.
    So how do we go forward? Do we simply approve of every populist or 
nationalist movement that appears in Europe? I simply don't propose to 
do any such thing. But can we have policies which make it clear that we 
prioritize growth over stability? I think we can. I believe we should.
    Should we have a strong deterrent policy toward the Russians? I 
believe that's absolutely necessary. Should we back firm European 
border controls? I think politically in Europe that is an absolute 
necessity right now. If we don't back sensible things that are somewhat 
different from the immediate past consensus, we will simply get more of 
these movements, some of which are going to do things that we are going 
to find extremely distasteful.
    Mr. Tiersky. Paul?
    Dr. Coyer. I would just agree with that. And I would just add to 
that, I think a void in the national aspirations of many Europeans has 
been created in the manner which I have described and Ted has spoken to 
as well. And when you don't fill the void with something that's 
healthy, it's going to be filled with something that's unhealthy. And 
that's why I think we need to take an active role in defining and 
shaping a healthy sort of nationalism that includes human rights 
protections.
    Indeed, as I mentioned earlier, modern conceptions of human rights, 
modern democratic governance, the rule of law, all that arose in the 
context of a modern nation-state. So it is not mutually exclusive. I 
don't see nationalism as being something that's in contradiction to all 
those aspirations and those things that we need. So I think that we 
need to be actively involved in shaping a healthy form of nationalism 
and defining that so that these sorts of issues are addressed.
    And I also agree with you, and as Ted also said, there is a 
negative tendency on the part of not all, but some of these movements 
within Europe to be too sympathetic to Putin and to Russia. This is 
another reason we need to be heavily involved. I think I made this 
point in my initial statement as well--the more the EU leaders double 
down on their blanket condemnation of national identity and tradition 
and that sort of thing, the more it plays into the hands of Putin and 
gives rise to some of these negative actors.
    Mr. Tiersky. Jeff, I'm actually going to beg your forgiveness and 
ask you to hold your comments because we're getting close to the end of 
our time here today and I saw a number of questions in the audience. I 
really would like to give folks a chance to participate.
    So what I propose is a kind of a lightning round where I take as 
many questions as I can and our panelists do their best to take what 
they can and respond and offer any final remarks at this point.
    So I see in the front row here and then in the back and then in the 
far back, one, two, three. Am I missing anybody else? Okay, four, 
great. We'll do four at once.
    Questioner. Should I skip the identification, or is that still 
important?
    Mr. Tiersky. No, it's important for the transcript.
    Questioner. Short, please. Yes. Per Bergstrom [sp], Senator 
Murray's office. These are mostly my thoughts.
    Merkel seems to be getting out while the going is still good. And 
with her out of the picture, it seems that only Macron in France is a 
major European head of state that seems to be willing to speak for the 
European project. How do you think this affects the dynamics we've been 
talking about today?
    Mr. Tiersky. Great. Do me a favor and hand the microphone straight 
back.
    Questioner. Mark Toner, Helsinki Commission, the State Department's 
senior adviser.
    My question is pretty basic and simple, which is, soft power 
diplomacy. This is my view--but we've let the transatlantic 
relationship atrophy, and by that I mean we had this distinct 
relationship with the post-war generation of Europeans that understood 
and appreciated America's role. And that relationship between Europe 
and America, I don't think the new generation has that appreciation.
    We talk about working within multilateral settings with the EU and 
at NATO, but I think that relationship doesn't filter down to the 
publics both in America, despite Jeff's quoting strong support for 
NATO, but certainly in most European populations. So how do we 
revitalize that?
    Mr. Tiersky. Great. And then one here and then in the far back, 
please.
    Questioner. Hi. I'm Andrew Myslik with Congressman Larson's office, 
also speaking from my views.
    I am curious, to go on a NATO stretch here, how much stock and how 
should we define 2 percent of GDP as well as the 20 percent threshold 
contained within that, specifically given that a lot of European 
nations in the east, should NATO have to move heavy weaponry such as 
U.S. tanks rapidly east, could not actually support a lot of that 
infrastructure in their trains and their bridges. So there has been 
this debate and an ongoing debate in NATO regarding how 2 percent GDP 
should be defined.
    And then also, we in the U.S. like to say that we are spending all 
this and carrying all this burden--and we certainly are carrying a very 
large burden, we spend upwards of 3\1/2\ percent--I'm not sure of it 
exactly--but a lot of that is spent out of NATO areas. So are we 
actually carrying a sufficient burden in NATO as well?
    Mr. Tiersky. Great, thanks for that. And I will commend to you the 
transcript of a briefing we did with General Ben Hodges just after he 
retired as U.S. Army commander in Europe on precisely that subject.
    Paul, please.
    Questioner. Paul Massaro with the Helsinki Commission.
    A few years ago, it looked like the next big step in transatlantic 
relations would be an EU-U.S. free trade agreement. That appears to be 
totally off the table now and outside of the discussion. To what extent 
should free trade be part of the U.S. approach to Europe?
    Mr. Tiersky. Great, thanks. And very succinct, thank you.
    Here's what I propose. Let's start in the opposite order that we 
did the panel, so we'll go to Jeff and then in this direction, for your 
final thoughts.
    Thanks.
    Mr. Rathke. Okay. I will be quick. So, Paul, to your question, I 
think there should certainly be the ambition to work on, whether it is 
tariffs or nontariff barriers or the kind of global structural issues, 
the economy, the United States and Europe need to be working together. 
Whether that has to lead to a free trade agreement--tariffs, on 
average, are relatively low in the United States and in Europe already, 
so there is some gain to be realized there. But as we saw with the 
Transatlantic Trade and Investment Partnership (TTIP), both in the 
United States and even more crucially in Europe, there was a lot of 
public opposition, so you've got to figure out where you can make 
progress and focus energy there, I think, as the first order of 
business.
    On the 2 percent, 20 percent question, 2 percent has always, for a 
long time, been something the United States wanted NATO to adopt. And 
it predated the Trump administration. I think the difference now is 
there is a singular focus on that one number, which does not always 
bring countries along to increase their contributions. I think 20 
percent matters more because that's actual investment in real military 
capabilities, that is 20 percent of spending on R&D and procurement of 
equipment.
    I think we need to define what capabilities we want Europeans to 
have and then hold them to those commitments. We need to measure 
outputs rather than inputs. And if we measure only inputs, you can have 
an inefficient defense establishment in country A that spends 2 percent 
and accomplishes much less than a country B that spends it efficiently.
    As for the future of the European project, Angela Merkel is going 
to remain chancellor of Germany. She's not going to run for her party 
leadership, but she, depending on how that turns out, she could remain 
chancellor until 2021. Now, she's weakened by the recent political 
developments, so whether Germany is going to play an active role will 
depend a lot on how this succession takes place. But it leaves France 
as really the country that's putting out ideas that others have to 
react to. But without support of other major European players, it's 
hard to move those forward.
    One last comment because it's been discussed a little bit--growth 
rates. It is true that, on average, over the last 10 years, the U.S. 
economy has grown faster than Europe, but the gap is actually not as 
dramatic as it might seem. There have been years where Europe's growth 
rate was higher than that of the United States. And then there have 
been years where it's been the opposite, especially during the Greek 
financial crisis in the 2013, 2014, 2015 period.
    But I think it would be a mistake to write off Europe's economic 
model as one that is ineffective and that fails to deliver. Despite its 
problems and complications there are still a lot of places across 
Europe where the economy is growing and where unemployment is falling.
    Dr. Coyer. I'll be similarly quick. On the 2 percent issue, Ben 
Hodges spoke about this I think in January when he was here, that I 
think it's wise to look at that not just in a purely strict way, but 
also look in other ways that countries may contribute to our mutual 
defense that may not count toward the 2 percent. I think it's smart to 
consider that because there is a lot that other countries do. He raised 
the issue of Germany, which is many times criticized and has been 
perennially on this issue, that they give more than is counted toward 
their actual number.
    On the issue of French leadership of the EU, Macron right now has 
very, very, very low approval ratings. I've forgotten what they are, 
but they're really bad--15 to 20 percent, something like that. So 
whether he sticks around very much longer is an issue as well.
    As I believe I mentioned in my opening statement as well, one of 
the key issues that will determine how the EU thrives or whether it 
withers away is whether or not the ruling class in Europe can rethink 
their approach to governance and speak to the clearly expressed 
aspirations of many of the European citizenry we see in these movements 
that are EU skeptic movements that are arising.
    About popular support on both sides of the Atlantic for the 
transatlantic relationship, that's a very, very good point. And that's 
something that I try to address in my speaking and my writing. That's 
actually one of the reasons why I, about 4 years ago with several 
friends, started this journal called ``Providence: A Journal of 
Christianity and American Foreign Policy,'' because on the U.S. side of 
the Atlantic, as you know, evangelicals and Catholics are a big voting 
bloc. Many times, especially evangelicals, they're not that well 
informed. They have kind of a kneejerk sense of what America's national 
identity is and what its role in the world should be, but it's not well 
thought out. So one of the reasons why we started this journal was to 
educate that critical voting bloc in the United States. And we 
specifically, in the area of transatlantic relations, are trying to 
address it from a normative and moral perspective, as well, which is a 
language that crowd gets as to why it's so important in terms of 
democracy promotion, which leads to human flourishing and freedom and 
thriving, which, again, is language that evangelicals and Catholics 
get.
    That's just one aspect of the American voting bloc. The populace as 
a whole needs to be educated on this. Same thing in Europe, but a very 
good question.
    Dr. Bromund. Let me take a stab at doing all four of them really 
quickly. U.S.-EU free trade, the United States Trade Representative has 
announced the intention to negotiate a trade agreement with the 
European Union as well as the United Kingdom and Japan, so that is back 
on the table in some shape or form. The fundamental problem with TTIP, 
in my view, was that it was an effort at regulatory harmonization to 
European levels. It was not a tariff-cutting, preeminently, exercise.
    In my view, a regulatory tie-up between the U.S. and the European 
Union would do considerable long-term damage to the competitiveness of 
both of our economies, although it would be very convenient for large 
companies today who would dictate the terms of that regulatory tie-up. 
So unless we take a fundamentally different approach than we did during 
TTIP, I remain somewhat skeptical about this approach.
    On 2 percent, with all due respect to General Hodges and his 
national service, I think he is doing an enormous disservice by 
promoting this line that infrastructure spending is a replacement for 
tanks. No amount of German autobahns or improved railways to the east 
are going to deter the Russians. You do not deter people with empty 
railcars and highways with nothing on them. It takes actual military 
capabilities.
    All of this argument about infrastructure and logistics, I do not 
underrate the importance of logistics, but it all comes down to being 
an excuse to allow places to spend money on things that are not 
actually contributors to genuine deterrent power. And that is all it 
is. So it is a fundamental disservice to increased genuine European 
defense spending.
    Third, soft power. I'm tempted to be flip and say the way to get 
the old relationship back is to have World War III because, I mean, 
World War II was what did it. We're not going to get that back and we 
shouldn't run around wishing for it to return, in some respects, 
because it would mean an absolute cataclysm.
    I don't think there is a really easy or even a very convincing 
long-run answer to the correct problem that you are articulating. I am 
clearly a Euro skeptic and quite a firm one, but I am certainly not 
anti-European nations and I am not anti-European unless you narrowly 
mean anti-European Union by that stricture.
    I don't think that there is a lot of anti-Europeanism in the 
American public. I do think that there is a significant element of 
anti-Americanism in Europe. I wouldn't say it's a predominant element, 
but it is there, it is a real factor and TTIP proved it, among other 
things. The single most useful thing that could happen would be for 
European political leaders to stop making excuses for anti-Americanism, 
full stop.
    Finally, Merkel, Macron--the last time I checked, Macron was at 27 
percent, so I guess he's doing a little better, but it's still 
terrible. Macron, in a way, is a symptom of the problem we've been 
talking about, right? He is another populist leader. He happens to be a 
somewhat more attractive one in some respects, but where are the 
traditional parties of France, the traditional post-Gaullist settlement 
parties of France at least? Macron, in some ways, is a rebellion 
against those parties because they were seen to be, well, failing. So 
for many reasons he is as much a symptom of the problem as he is any 
sort of potential cure for it.
    That really highlights sort of the core problem here, that one can 
be very critical, and I am, of Chancellor Merkel or other European 
political leaders in big nations. But it's not very clear who the next 
appealing person is. One can be critical of Theresa May in Great 
Britain, and I am quite critical. Would you prefer Jeremy Corbyn from a 
transatlantic point of view? Well, I would not. Would you prefer the 
French nationalists to Macron? Well, I probably would not prefer them. 
And that's the problem that we've run into, that the political 
consensus now is so shallow, commands so little loyalty, but yet is so 
all-encompassing that when you look outside of it, many of the options 
are not very appealing; but when you look inside it, it's obvious that 
the options are not very appealing either. And that's a very bad place 
to be in.
    Let me close on the mundane question of growth rates, which Jeff 
has returned to. We all prioritize growth too little, including in the 
United States. We are marginally better than Europe, but we, too, 
prioritize stability excessively and growth too little. The Europeans 
are on sort of one extreme of that tendency, but we ourselves are no 
paragon of virtue in this regard.
    I will simply close and reiterate what I said at the start. After 
World War II, we came to the understanding that you don't have stable 
democratic political systems unless you have reasonably high and stable 
levels of economic growth. Social protection is important, but it must 
be balanced with growth. Everywhere in the developed world, we give too 
much attention to protection and too little attention to growth. And 
that is a rejection of the lesson that we learned the hard way by 1945.
    Mr. Tiersky. With that invocation of World War II, let me thank our 
panelists for informing the Helsinki Commission and our broader 
community here in Congress and around Washington and our Facebook feed.
    I think we've seen today the evidence of why it's important to air 
both our agreements and our disagreements, particularly at times of 
significant change. One key point I take away from this is that, 
regardless of its form, I think all of the panelists have agreed that a 
transatlantic partnership that is strong is crucial, even if we 
disagree on how to get there.
    Colleagues, panelists, we appreciate your contributions to our 
reflection on this set of issues and in particular for staying a few 
minutes extra to undertake responses to the excellent questions we got 
from our audience here. Thank you very much for your time. [Applause.]
    [Whereupon, at 11:43 a.m., the briefing ended.]

                                          [all]

  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe [OSCE].

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
